No.

IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER PRO SE

PATSY N. SAKUMA
(Your name)
vs.

ASSOCIATION OF CONDOMINIUM HOME OWNERS -RESPONDENTS
OF TROPICS AT WAIKELE, BY ITS
BOARD OF DIRECTORS, ET. AL.
ON PETITION FOR WRIT OF CERTIORARI
TO THE INTERMEDIATE COURT OF APPEALS
OF THE STATE OF HAWAII
VOLUME I OF III
APPENDICES 01-88 TO
PETITION FOR WRIT OF CERTIORARI

PATSY N. SAKUMA
Petitioner Pro Se
1232 Makaloa Street # 7
Honolulu, HI 96814
808-454-3171

i

/

;

i%':
THOMSON REUTERS WESfLAW

Association of Condominium Homeowners of Tropics at Waikele...
Association of Condominium Homeowners of Tropics at Waikele by Board of Directors v. Sakuma, 148 Hawaii 471, Hawaii
App., December 18,2020

immMmmiMmmmmKmmmm.
t¥?'

!

148 Hawaii 471
Unpublished Disposition
Unpublished disposition. See HI R RAP Rule 35 before citing.
Intermediate Court of Appeals of Hawaii.

ASSOCIATION OF CONDOMINIUM HOMEOWNERS OF TROPICS AT
WAIKELE, BY its BOARD OF DIRECTORS, Plaintiff-Appellee,
v.
Patsy Naomi SAKUMA, Defendant-Appellant,
and
First Hawaiian Bank, a Hawaii Corporation; Waikele Community
Association, a Hawaii Nonprofit Corporation, Defendants-Appellees,
and
John Does 1-5; Jane Does 1-5; Doe Partnerships 1-10; Doe Entities 1-5;
and Doe Governmental Units 1-5, Defendants
NO;'CAAP-16-0000627

December 18, 2020

APPEAL FROM THE CIRCUIT COURT OF THE FIRST CIRCUIT (CIVIL NO. 07-1-1487)
i

Attorneys and Law Firms
On the briefs:
Pat N. Sakuma, Defendant-Appellant pro se.
R. Laree McGuire, H. Maxwell Kopper, Honolulu, for Plaintiff-Appellee.
Jonathan W.Y. Lai, Tracey L. Ohta, Honolulu, for Defendant-Appellee.
{■

*'

; OffcCl#
v*

https://m.next.west1aw.com/d/lc64aa5c041e111eb32bl34871050...7249deff654l665d89bee8f4754ec2d4f96af8f9aad016dce3744

7/21/21, 11:42 PM
Page 1 of 4

‘A.

(By: Ginoza, Chief Judge, Wadsworth and Nakasone, JJ.)
SUMMARY DISPOSITION ORDER
||: This case arises from a judicial foreclosure action commenced by Plaintiff-Appellee Association of
Condominium Homeowners of Tropics at Waikele (AOAO) against Defendant-Appellant Patsy
Naomi Sakuma (Sakuma) and Defendant-Appellee First Hawaiian Bank. Sakuma, seif-represented,
appeals from the August 15, 2016 "Order Denying [Sakuma's] Motion for Reconsideration of the
March 22, 2016 Order Denying [Sakuma's] Motion to Vacate Default Judgment; Summary Judgment
Against Sakuma; Interlocutory Decree of Foreclosure; Order Granting [AOAO's] Motion for Order for
Confirmation of Sale by Commissioner; May 12, 20131 Judgment; Judgment for Possession; Writ of
Possession, Filed December 8, 2015” (Order Denying Motion for Reconsideration), entered by the
Circuit Court of the First Circuit (circuit court).2
Upon careful review of the record and the briefs submitted by the parties and having given due
consideration to the arguments advanced and the issues raised by the parties, we conclude that
Sakuma's appeal is moot.
Sakuma challenges both the March 22, 2016 order denying her December 8, 2015 Hawai'i Rules of
Civil Procedure (HRCP) Rule 60(b) motion to vacate, as well as the August 15, 2016 Order Denying
Motion for Reconsideration.
In a previous appeal by Sakuma from the same underlying case, Civil No. 07-1-1487-08 in the First
Circuit Court, we dismissed the appeal as moot and the Hawai'i Supreme Court denied Sakuma's
application for writ of certiorari. Assoc, of Condo. Homeowners of Tropics > at Waikele *, ex rel.
Bd. of Dirs. v. Sakuma, No. CAAP-12-0000870, 2016 WL 299530, (Haw. App. Jan. 21,2016) (SDO),
cert, denied, No. SCWC-12-0000870, 2016 WL 6804410 (Nov. 1,2016). In that prior appeal, Sakuma
appealed from the order confirming the foreclosure sale, the judgment for possession, and the writ of
possession, all entered on May 29, 2012. Id. at*1. She also challenged the denial of her June 7, 2012
motion for reconsideration of the May 29, 2012 order confirming the foreclosure sale. Id. We analyzed
whether the mootness doctrine applied, stating:
The general rule is that the right of a good faith purchaser "to receive property acquired at a judicial
sale cannot be affected by the reversal of an order ratifying the sale where a [supersedeas] bond
has not been filed!.]" Leisure Campground & Country Club Ltd. Partnership v. Leisure Estates, 280
Md. 220, 223, 372 A.2d 595, 598 (1977). See also Citibank, N.A. v. Data Lease Fin. Corp., 645 F.2d
333, 336 (5th Cir. 1981). The purpose of the rule is to advance "the stability and productiveness of
judicial sales [.]" 47 Am. Jur. 2d Judicial Sales § 55 (1969). An exception to the rule is where the
reversal is based on jurisdictional grounds. Id. at § 54. The second exception is where the
purchaser is the mortgagee since he “does not free himself from the underlying dispute to which he
is a party[.]” Leisure Campground, 280 Md. at 223, 372 A.2d at 598. See also 47 Am. Jur. 2d
Judicial Sales §§ 59-61.
S Id. at *1 (quoting City Bank v. Saje Venture II, 7 Haw. App. 130, 133, 748 P.2d 812, 814 (1988)).3
We held:
The record on appeal includes the Distribution Statement and Account of Commissioner;
Exhibit “A” (Distribution Statement) and Certificate of Service, filed on July 2,2012. The
Distribution Statement confirms that the sale of the Property was closed, through Title Guaranty

00002
https ://m.next.westi3w.cbm/d/icS4ae5c041e') 11 eb32b1a4871056...7249deff6541665d89beeS?4754ec2d4f96af8f9aad016c!ce3744

7/21/21, 11:42 PM
Page 2 of 4

'

Escrow Services, Inc., on July 2, 2012. Sakuma failed to obtain a stay of the sale transaction,
the completed sale of the Property rendered this appeal moot, and, upon review, no exceptions
to the mootness doctrine apply. [Lathrop v. Sakatani, 111 Hawaii 307, 313-315, 141 P.3d 480,
486-88 (2006).]

Id. at *2. We therefore dismissed Sakuma's prior appeal as moot. Id.
The relief Sakuma ultimately seeks through the motion to vacate and the motion to reconsider that are
the subject of the current appeal is to vacate the very orders and judgments that were the subject of
the previous appeal, as well as orders and judgments that led thereto. Thus, for the same reasons that
we deemed the previous appeal to be moot, the issues raised in this appeal are also moot. See
Kaho'ohanohano v. State, 114 Hawaii 302, 332, 162 P.3d 696, 726 (2007) (“[A] case is moot if the
reviewing court can no longer grant effective relief.” (citation and emphasis omitted)). Although
Sakuma attempts to argue that the exceptions to mootness apply, her arguments have no merit.
Furthermore, we already held in the previous appeal that no exceptions to the mootness doctrine
applied. Assoc, of Condo. Homeowners of tropics: ► ;-at Waikele »jex rel. Bd. of Dirs., 2016 WL
299530, at *2. Sakuma has not raised any new arguments that defeat application of the mootness
doctrine to the issues raised in this appeal.
Accordingly, we dismiss this appeal as moot.
AH Citations
148 Hawaii 471,478 P.3d 296 (Table), 2020 WL 7421703
Footnotes
1
There was no judgment, judgment for possession, or writ of possession filed on May 12, 2013, in this
matter. This was a typographical error initially made by Sakuma in her motion to vacate that went
uncorrected. It appears that Sakuma was referring to the judgment, judgment for possession, and writ
of possession, all filed on May 29, 2012.
2
The Honorable Bert I. Ayabe presided.
3
The Hawaii Supreme Court has since adopted this court's general rule stated in City Bank. See Bank
of New York Mellon v. R. Onaga, Inc., 140 Hawaii 358, 366-67, 400 P.3d 559, 567-68 (2017).
End of Document
© 2021 Thomson Reuters. No claim to original U.S. Government Works.
0;

<

13 of 71

>..... .

TljSSs

:■ *. I

•s

. . Email Document

'00002!
https ://m.ne>rt.wes-tlaw.com/d/lc64aa5c041e111 eba2b1s4871050...7249cfeff65416S5d89bee8f4754ec2ci4f96af8f9aad016dce3744

7/21/21, 11:42 PM
Page 3 of 4

3

Electronically Filed
Intermediate Court of Appeals
CAAP-16-0000627
22-JAN-2021
08:16 AM
Dkt. 111 IJ

NO. CAAP-16-0000627

IN THE INTERMEDIATE COURT OF APPEALS
OF THE STATE OF HAWAl‘l

!•

ASSOCIATION OF CONDOMINIUM HOMEOWNERS OF TROPICS AT WAIKELE,
BY ITS BOARD OF DIRECTORS, Plaintiff-Appellee,
v.
PATSY NAOMI SAKUMA, Defendant-Appellant,
and
FIRST HAWAIIAN BANK, A HAWAII CORPORATION; WAIKELE COMMUNITY
ASSOCIATION, A HAWAII NONPROFIT CORPORATION,
Defendants-Appellees,
and
JOHN DOES 1-5; JANE DOES 1-5; DOE PARTNERSHIPS 1-10;
DOE ENTITIES 1-5; and DOE GOVERNMENTAL UNITS 1-5, Defendants
APPEAL FROM THE CIRCUIT COURT OF THE FIRST CIRCUIT
(CIVIL NO. 07-1-1487)
JUDGMENT ON APPEAL
Ginoza, Chief Judge, for the court1)
Pursuant to the Summary Disposition Order of this court
entered on December 18, 2020, this appeal, is dismissed as moot*.
&•
DATED: Honolulu, Hawai‘i, January 22, 2021.
(By:

FOR THE COURT
/s/ Lisa M. Ginoza
Chief Judge

\

Ginoza, Chief Judge, Wadsworth and Nakasone, JJ.

00004

■ :,‘s 1.

♦

Wp.vp „nrta.pf)
our Privacvstatement Rpfnrp VOM rnntlnnp’ ^nlpaap rp, OMr npw Priuapu^
and tarmbanya vni «u»lf wjfh tha termJ
.

I

© ::

'

•

KK-.

V THOMSON REUTERS WESTLAW >

u.j

Association of Condominium Homeowners of Tropics at Waikeie...
Association of Condominium Homeowners of Tropics at Waikeie by Board of Directors v. Sakuma, Not Reported in Pac.
Rptr., Hawaii, May 05,2021
(■

< Back

Skip To

; V:..Q

V.. j

2021 WL 1784799
Only the Westlaw citation is currently available.
Unpublished opinion. See HI R RAP Rule 35 before citing.
Supreme Court of Hawaii.

ASSOCIATION OF CONDOMINIUM HOMEOWNERS OF TROPICS AT
WAIKELE, BY its BOARD OF DIRECTORS, Respondent/Plaintiff-Appellee,
v.
Patsy Naomi SAKUMA, Petitioner/Defendant-Appellant,
and
First Hawaiian Bank, a Hawaii corporation; and Waikeie Community
Association, a Hawaii nonprofit corporation, Respondents/DefendantsAppellees
i

SCWC-16-0000627

May 5, 2021

CERTIORARI TO THE INTERMEDIATE COURT OF APPEALS (CAAP-16-0000627; CIV. NO.
1CC071001487)
(By: Nakayama, Acting C.J., McKenna, Wilson, and Eddins, JJ., with Circuit Judge Tonaki, in place of
Recktenwald, C.J., recused.)
ORDER REJECTING APPLICATION FOR WRIT OF CERTIORARI
f! Petitioner/Defendant-Appellant Patsy Sakuma's application for writ of certiorari filed on March 23,
2021, is hereby rejected.
i

All Citations
Not Reported in Pac. Rptr., 2021 WL 1784799

• -«
htf:ps://m.next.westiaw.conVd/l02441960ae3111ebbd6S8ci733e7..,37249deff6541665d89beeSf4754ec2tf4f96af8fw--- ^
;!

00005
...46 PM
Page 1 of 2

Additional material
from this filing is
available in the
Clerk's Office.

